<html>
<title> - TENSION IN THE TINDERBOX: FINDING FAIRNESS FOR FEDERAL FIREFIGHTER COMPENSATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  TENSION IN THE TINDERBOX: FINDING FAIRNESS FOR FEDERAL FIREFIGHTER 
                              COMPENSATION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 12, 2005

                               __________

                           Serial No. 109-69

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-409                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
------ ------                        CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Chris Barkley, Professional Staff Member
                       Chad Christofferson, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 12, 2005..................................     1
Statement of:
    Judd, Casey, business manager, Federal Wildland Fire Service 
      Association; and Ryan Beaman, president, Clark County 
      Firefighters, International Association of Firefighters....    31
        Beaman, Ryan.............................................    67
        Judd, Casey..............................................    31
    Vaught, Bob, Forest Supervisor, Humboldt-Toiyabe National 
      Forest, U.S. Forest Service; and Nancy Kichak, Associate 
      Director, Strategic Human Resources Policy, Office of 
      Personnel Management.......................................     7
        Kichak, Nancy............................................    16
        Vaught, Bob..............................................     7
Letters, statements, etc., submitted for the record by:
    Beaman, Ryan, president, Clark County Firefighters, 
      International Association of Firefighters, prepared 
      statement of...............................................    72
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    83
    Judd, Casey, business manager, Federal Wildland Fire Service 
      Association, prepared statement of.........................    37
    Kichak, Nancy, Associate Director, Strategic Human Resources 
      Policy, Office of Personnel Management, prepared statement 
      of.........................................................    18
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California, prepared statement of.................    84
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     5
    Vaught, Bob, Forest Supervisor, Humboldt-Toiyabe National 
      Forest, U.S. Forest Service, prepared statement of.........    11


  TENSION IN THE TINDERBOX: FINDING FAIRNESS FOR FEDERAL FIREFIGHTER 
                              COMPENSATION

                              ----------                              


                        FRIDAY, AUGUST 12, 2005

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                     Las Vegas, NV.
    The subcommittee met, pursuant to notice, at 11 a.m., at 
the Red Rock Canyon Fire Station, off Red Rock Campground Road, 
Las Vegas, NV, Hon. Jon C. Porter (chairman of the 
subcommittee) presiding.
    Present: Representative Porter.
    Staff present: Chad Bungard, deputy staff director, chief 
counsel; Christopher Barkley, professional staff member; and 
Chad Christofferson, clerk.
    Mr. Porter. I'd like to formally bring the meeting to 
order. I want to say I guess before I get into my scripted 
remarks, which I have to include for the record, as do many of 
you here today, how much I appreciate all of you being here 
today.
    And, you know, it's truly a great facility, you know, at 
the foothills of one of the most beautiful places in the 
country. We're very proud of it, those that are here from 
Nevada. I'd like to say it's a secret but it really isn't. Red 
Rock and the adjoining area is just absolutely a phenomenal 
place. I know as you step outside, and hopefully you can spend 
a little time and tour the area, it's tremendous.
    But it's very special not only because of the natural 
resource but we have so many people here that help make it so 
great. You know, the firefighters, Forest Service, State of 
Nevada, BLM, we can go on and on, the Federal agencies and all 
the State agencies. But it's truly because of a lot of people 
that care. There's a lot of volunteers that help here locally 
that help in Red Rock. It's very pristine. We want to make sure 
that we keep Red Rock the natural resource that it is; 
something for us to brag about.
    There are some very special individuals that are on the 
line every day, and I've had a chance to talk to some of the 
guys outside. I think I had a picture with all of them.
    But it's a very, very tough job. And it's, you know, we 
hear about it at times when the fires are big or when the fires 
are roaring across the valley or we hear about it when there's 
structures at risk. But truly these men and women that are 
fighting those fires are our heroes.
    And having had a chance to meet with many individuals prior 
to today and then today, I want to make sure that they are 
compensated properly, that benefits are proper, that they 
realize that we, as Members of Congress, but also residents of 
Nevada and of the country, can do everything we can to make 
sure that they have the benefits and they have proper 
compensation.
    I know that Nevada is a State that faces late summer and 
fall with the potential of more fires. I know we've experienced 
many of those fires just through the years, but now with the 
needed moisture we received early in the year, we now have a 
lot of vegetation that I know as soon as I would read the 
accounts or see the amount of rainfall, knowing how the valley, 
from a moisture standpoint, but also realizing August, 
September and October we're going to have some more fires. So I 
thought it was an appropriate time to have this hearing.
    It's again important for the rest of the country to realize 
that Nevada is on the forefront of a lot of things, and that's 
resort industry, gaming industry, entertainment and even 
shopping. But we have natural resources here that we're very 
proud of and that's why I think at the base of Red Rock it's 
also very, very important to have the hearing here today.
    Now into my formal comments. We do have a title for the 
hearing. It's called ``Tension in the Tinderbox: Finding 
Fairness for Federal Firefighters.'' Again as a committee, in 
August, Ranking Minority Member Mr. Danny Davis was going to 
try to join us, originally was, but at the last minute had a 
conflict, and he sends his apologies. He's a good friend from 
Chicago and is very supportive of what we're doing today.
    Copies of his opening statement have been made available, 
so if anyone would like to see them, and his statement will be 
entered into the official record. As I mentioned, I want to 
thank everyone here and to the Bureau of Land Management.
    You know, as we, as a subcommittee, look at the Federal 
work force, it's vital that we make sure that we examine how 
the Federal Government compensates the wildland firefighters. 
It's nowhere more important than here in Nevada where each year 
our State is ravaged by hundreds of wildland fires protected by 
hardworking firefighters.
    I must say that the green brush and the wonderful wild 
flowers, I hope you have a chance to see and maybe even take 
some pictures, is a beautiful sight. And as I talk to many of 
my colleagues from the east and we talk about public lands, 
many of my colleagues they don't really understand the 
magnitude of Nevada being almost 90 percent Federal land.
    And we've had a chance to fly over Nevada with other 
Members of Congress and I point out the window and let them 
know that you realize that's Federal property and we have that 
responsibility.
    That too is I think a reason for having the hearing here 
today so we can send that message.
    So with that I will submit my formal statement for the 
record, but I want to recognize a good friend of mine that 
couldn't be here today, Chairman Richard Pombo. He's chairman 
of Natural Resources. He has a bill that we're going to talk 
about specifically today, and that's H.R. 408 called the 
``Federal Wildland Firefighter Emergency Response Compensation 
Act of 2005.'' Mr. Pombo is from California where I guess it's 
been over a hundred plus there, which is good they have the hot 
weather there. We're used to it here.
    H.R. 408 would do--what it would do is enhance the pay and 
benefit package offered to employees of the Department of 
Interior and the Forest Service at the Department of 
Agriculture who fight wildland fires.
    H.R. 408 would provide what is known as ``portal-to-
portal'' compensation for wildland firefighters and would allow 
hazardous duty pay to be calculated for retirement purposes.
    Portal-to-portal compensation refers to pay given on a 24-
hour basis beginning at the time a firefighter leaves his home 
station and ends upon his return.
    Now, I've had a chance to meet some of the gentlemen that 
are here today from Arizona, this would be a case where they 
are here from southeastern Arizona. I tried to get them to stay 
but they said they had to go home sometime, but they were 
enjoying being here.
    Currently, wildland firefighters are paid only during 
working hours and not for off hours despite not being able to 
leave the fire-line.
    At this time, the vast majority of Federal firefighters--
structural and wildland--do not receive portal-to-portal 
compensation and so the decision to change how firefighters are 
compensated will have to be made carefully. My hope is that 
this hearing will serve as a forum from all key stakeholders on 
this issue.
    We will first be hearing from Bob Vaught of the Forest 
Service. I have invited Mr. Vaught here today not to comment on 
the provisions of this bill, but rather to provide the 
subcommittee with insight into the current conditions facing 
wildland firefighters.
    In his capacity as forest supervisor for the Humboldt-
Toiyabe National Forest, he's had firsthand experience with 
wildland fires and understands what it is that the wildland 
firefighters do at the Forest Service on a day-to-day basis.
    Next we'll hear from Nancy Kichak. I hope I pronounced that 
right.
    Ms. Kichak. Yes.
    Mr. Porter. From the Office of Personnel Management. She 
will share with us administrations' views on H.R. 408 and help 
us to see how this bill will affect pay issues involving other 
Federal employees.
    On the next panel we'll hear from a representative of 
wildland firefighters, Mr. Casey Judd, best tie in the room. 
Mr. Judd is the business manager for Federal Wildland Fire 
Service Association and he will be sharing his views on H.R. 
408 with the subcommittee.
    Last, we'll be hearing--we're fortunate to hear from Mr. 
Ryan Beaman, the vice president for the Southern Region of 
Nevada for the International Association of Firefighters. Mr. 
Beaman will share his views with us on some other issues facing 
Federal firefighters at this time.
    We're fortunate to have all our guests today to discuss 
this important issue and I look forward to your testimony.
    I've asked other Members and have allowed other Members to 
provide any statements in writing, and Members of Congress will 
have 5 days to issue their statement and possibly have 
additional questions for all of you that are panelists.
    I also ask that any written questions provided by the 
witnesses be included in the record. I request that all 
exhibits, documents, and other materials referred to by members 
and the witnesses may be included, and I think we should get a 
picture of Red Rock to be on the record.
    Mr. Bungard. I'll do it.
    Mr. Porter. And may be included in the hearing record, and 
all Members be permitted to revise and extend their remarks.
    It is the practice of the subcommittee to administer the 
oath to all witnesses. So if you would all please stand, all 
those witnesses please stand for a moment and I'll administer 
the oath.
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T3409.001
    
    [GRAPHIC] [TIFF OMITTED] T3409.002
    
    [Witnesses sworn.]
    Mr. Porter. Let the record show the witnesses answered in 
the affirmative. Please be seated.
    Each witness will have approximately 5 minutes to summarize 
their comments, and certainly we'll accept anything in writing. 
I know it will be tough keeping it to 5 minutes but we'll do 
the best we can to make sure that yours points are known and 
taken for the record.
    So first though we'll now hear from our first panel. Mr. 
Vaught, you may begin. Welcome.

 STATEMENTS OF BOB VAUGHT, FOREST SUPERVISOR, HUMBOLDT-TOIYABE 
    NATIONAL FOREST, U.S. FOREST SERVICE; AND NANCY KICHAK, 
ASSOCIATE DIRECTOR, STRATEGIC HUMAN RESOURCES POLICY, OFFICE OF 
                      PERSONNEL MANAGEMENT

                    STATEMENT OF BOB VAUGHT

    Mr. Vaught. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here today and talk about firefighting in the 
Forest Service. I am Bob Vaught, forest supervisor for the 
Humboldt-Toiyabe National Forest, which is 6.3 million acres, 
mostly in Nevada, of magnificent mountainous terrain that most 
people don't appreciate unless they've been there.
    We do manage about 650,000 acres of national forest that 
are located in California on the eastern side of the Sierra 
Nevada range. I'm responsible for oversight of the management 
of the natural resources on this national forest including 
significant responsibilities for working with local people.
    Mr. Porter. Excuse me, Bob. You realize California is going 
to fall off into the ocean anyway. We'll have that in Nevada.
    Mr. Vaught. I hope a piece of the eastern part of the 
mountains are still steady.
    Mr. Porter. That would be OK.
    Mr. Vaught. I would like to introduce briefly, if I could, 
Mike Dudley. Mr. Dudley is the director of fire management in 
my higher level office in Ogden, UT.
    I supervise over 400 employees. Over 130 of those work full 
time and seasonally in fire management. Many of our non-fire 
employees, such as wildlife biologists, foresters, engineers, 
hydrologists and many others while they're not full time 
firefighters have qualifications and are an essential resource 
in fighting fires as well.
    Many factors and people are involved in fuel and fire and 
firefighting and fuels management. This area of expertise 
includes not only fighting wildfires but suppression, 
rehabilitation and restoration after fires as well.
    Today I'll discuss the current fire season very shortly and 
our methods of wildland fire management and the duties of the 
many people that are involved in wildland fire management. Of 
the three factors that influence wildland fires, weather, 
topography and fuels, fuels is the only one we can really 
manage with any effectiveness at all.
    For much of the 20th century, wildland fires were generally 
thought to be bad for the environment, and as a consequence all 
were put out as soon as possible. Over time and across very 
large areas in Nevada and across the west, as the acres of 
natural fires was reduced, the amount of fuel on the landscape 
in the form of trees and shrubs has increased.
    This buildup of vegetation coupled with drought and the 
development of homes and communities near the wildlands has led 
to very significant, increasing concerns about the health of 
the forest and rangelands as well as the risk to communities. 
Understanding and meeting these challenges requires 
unprecedented cooperation today among interagency groups 
including Federal agencies, State agencies, tribal and local 
governments.
    I would like to say a few words about this year's fire 
season. We've burned more than a million acres of land this 
year in Nevada, mostly in southern Nevada. Heavy winter snows 
and early rains led to heavy growth of grasses and other 
herbaceous fuels. Most of western Nevada rangelands remained at 
high risk for wildfire. Eastern and southern Nevada have had 
recent rainfalls and so we believe there will be near normal 
fire danger for the rest of the season in this area. Forested 
areas across the State will continue to see near normal fire 
conditions we believe in August.
    In initial attack as we fight fires, agencies use a variety 
of techniques including ground firefighters, crews, engine 
crews and a mixture of helicopters and fixed-wing aircraft. In 
recent we've succeeded in controlling more than 98 percent of 
fires through initial attack.
    If firefighting assets are strained, however, as a result 
of multiple, simultaneous large fires, resources are 
prioritized and allocated by a group called the National Multi-
Agency Coordinated Group which is based in Boise in a part of 
the national interagency fire center. This group consists of 
national fire directors of all the Federal firefighting 
agencies and State representatives as well. These efforts 
ensure that all of the national firefighting assets are 
appropriately positioned and provided with the most up to date 
information.
    In 2005 we have about the same level of firefighting 
resources as we had in 2004. Nationally more than 18,000 
firefighters are available. This does not include though the 
Federal agency personnel and the many other occupations like 
wildlife biologists and many others that also mobilize to 
perform incident management duties when fires occur. These 
18,000 firefighters include Federal and State employee crews 
from tribal organizations, local governments, contract crews, 
emergency and temporary hires.
    If we experience severe fire risk, we stage or deploy 
firefighters even before fires occur. And we stage things like 
equipment and aircraft vehicles, supplies and personnel. And 
these are tracked through a national integrated system.
    Aviation is a big and important part of the firefighting 
effort, and we use heavy airtankers, helitankers and many other 
helicopters. We also use CL-215 airtankers, which are a midsize 
airtanker, and smaller airtankers called Single Engine 
Airtankers called SEATS. There's also eight military aircraft, 
C-130 aircraft that are available.
    Safety is of course of extreme importance to our agency and 
to our people. Safety is a core value of the Forest Service. 
Our firefighters do an impressive job under adverse conditions. 
And as you stated, Mr. Chairman, they very much deserve our 
thanks.
    Firefighting is a high risk, high consequence activity, so 
safety and training are essential for firefighter preparedness. 
Situational awareness is the centerpiece of firefighter safety, 
and our responsibility for managing the unexpected in wildfires 
which is where the danger lies. It includes formal classroom 
training, on-the-job training, drills, discussions, and reviews 
that are all a part of a very significant training program that 
firefighters are involved with. They must complete course work 
and multiple training assignments in the field before they can 
be certified for fire-line positions.
    The President's Healthy Forest Initiative has been very 
important to the Forest Service and other wildland agencies in 
providing us with tools to reduce the risk of fuels, and 
therefore reduce the risk of severe and dangerous wildfires. In 
total the Humboldt-Toiyabe National Forest in the last 4 years 
has completed about 7,000 acres of fuels reduction work. About 
3,000 of those acres have been in the wildland urban interface. 
I expect this program to significantly increase over the next 
few years, and it is a very important one for our nation, for 
our communities and for the health of our resources on the 
landscape.
    Over the past 2 years the Nevada State Forester, the Bureau 
of Land Management and Humboldt-Toiyabe National Forest have 
worked with the Nevada Fire Safe Council and have completed 
Community Wildfire Protection plans for 251 communities at risk 
in Nevada. Each of these plans identifies specific actions to 
protect communities.
    This year the Forest Service also provided $2\1/4\ million 
in matching grants to the State of Nevada for fire fuels and 
forest health management. And the Humboldt-Toiyabe National 
Forest also assists volunteer rural fire departments with 
training, equipment and organization through the volunteer fire 
assistance program. And so again it highlights the very 
significant importance of the interagency help both financially 
and as we work together on fires.
    As you can see, there are many facets of fire management. 
Many occupations are involved in firefighting--planners, 
scientists, hydrologists, biologists, finance specialists, 
community specialists as well as the men and women of our 
firefighting force.
    When fire season is over, and even before fire season 
begins, our firefighters also have collateral duties and they 
put those skills to good use. They include planning, prescribed 
fire management and fuels reduction projects, range and many 
other non-fire duties. Conversely many of our foresters, 
biologists, hydrologists and other professional and technical 
and clerical employees have collateral duties when a fire bell 
rings.
    Last I'd like to say just a few words about the action that 
citizens can take. And this is also a very important aspect of 
living and working in fire adapted western ecosystems. 
Homeowners need to learn how to protect their homes with 
survivable, cleared space and how to build their homes and 
landscape with fire resistant materials.
    A consortium of wildland fire agencies sponsors a Firewise 
program. These include the Forest Service, Department of 
Interior, the National Fire Protection Association and the 
National Association of State Foresters. Information about the 
Firewise program is available on our Web site www.firewise.org, 
and it is very important that every person that lives or plays 
in these fire-adapted ecosystems be knowledgeable.
    And we appreciate the opportunity that we have to be here, 
and of course we'd be happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Vaught follows:]

    [GRAPHIC] [TIFF OMITTED] T3409.003
    
    [GRAPHIC] [TIFF OMITTED] T3409.004
    
    [GRAPHIC] [TIFF OMITTED] T3409.005
    
    [GRAPHIC] [TIFF OMITTED] T3409.006
    
    [GRAPHIC] [TIFF OMITTED] T3409.007
    
    Mr. Porter. Thank you, Bob. Appreciate your comments. 
Before we move on I want to also recognize a friend, Steve 
McClintock with Clark County Fire Department. He's here. He's 
the rural coordinator. I think many of you know him 
professionally. He offered his assistance.
    But also I want to acknowledge that his sister recently 
passed away, Anita, who was a friend of mine. If you didn't 
know, Steve's sister had cancer and it's just recent that he 
and his family had the loss of his sister, so I want to add 
that for the record because they're a great family and a 
firefighting family in Cal-Nev-Ari and other areas.
    On a lighter note I know Steve is always eyeballing our 
Federal firefighters, and we want to make sure that county 
doesn't steal any more of your Federal firefighters and the 
city. We want to make sure that we keep them working for the 
Federal Government, right, guys? We want to make sure that 
we're competitive, and I know that Clark County and the city of 
Las Vegas have been superb in cutting edge fire equipment and 
employees, but we want to make sure that our Federal team is 
equal and has compensation.
    So having said that, I know Steve will appreciate your best 
wishes.
    Next, Nancy, we appreciate you being here, look forward to 
your statement.

                   STATEMENT OF NANCY KICHAK

    Ms. Kichak. Thank you, Mr. Chairman. And I have summarized 
my remarks and request that my whole statement be submitted for 
the record with your permission.
    I am pleased to be here today on behalf of the Office of 
Personnel Management to discuss the issue of compensation for 
Federal employees who perform emergency functions and to 
provide the administration's view on H.R. 408, the Federal 
Wildland Firefighter Emergency Response Compensation Act of 
2005.
    We at the Office of Personnel Management recognize the 
importance of the work performed by Federal wildland 
firefighters and by their State, local and tribal government 
colleagues. We respect the difficulties inherent in the complex 
and intense situations they address and I want to express our 
appreciation for their efforts.
    I would like to focus my testimony today on H.R. 408. As 
you are aware, Mr. Chairman, the administration's views have 
recently been provided to you in a letter from Linda Springer, 
the Director of OPM. In general terms the administration is 
unable to support the proposal.
    In determining our position on H.R. 408, we are governed by 
three basic principles. First, we need to address the merits of 
the proposal based on the objectives that must be met to 
achieve a certain mission. Second, we must try to maintain some 
level of equity among various groups of Federal employees who 
face similar challenges. Finally, we are obligated to ensure 
taxpayer dollars are being spent efficiently and effectively to 
achieve results for the American people.
    Section two of H.R. 408 would amend the current law to 
provide portal-to-portal compensation for wildland 
firefighters. It appears the intent is to mandate that wildland 
firefighters be in a duty and pay status for all hours they are 
away from their normal duty location to fight wildland fires. 
This change would violate each of the three principles stated 
which are guiding our review of legislative proposals.
    We do not find compelling evidence that such a change is 
necessary to meet mission objectives. Pay must be set to assure 
that the Federal Government is able to recruit and retain the 
employees that it needs to meet its mission. Where there is no 
indication that pay levels are producing significant and 
widespread recruitment or retention problems, we cannot justify 
large, general increases in pay.
    Second, this change in pay formula would not lead to equity 
among various groups of Federal employees who face similar 
challenges. Other Federal employees who are temporarily 
assigned to geographically isolated work sites are placed in a 
non-pay status when they are released from duty. Therefore, we 
believe paying wildland firefighters for periods of rest and 
sleep would create inequities for other Federal employees 
receiving assignments away from home. Also, we believe it would 
be inappropriate to provide hazardous duty pay for sleep and 
rest periods.
    Our third responsibility is to assure that taxpayer dollars 
are spent wisely. Again the pay proposals of H.R. 408 do not 
meet this test. As stated previously, many adjustments are made 
to the pay of wildland firefighters while they are working at 
the sight of the fire. This includes hazardous duty pay and 
overtime pay. Under current law, firefighters can receive total 
pay for a week that is three to four times his or her regular 
weekly rate of basic pay.
    Depending on work schedule, this legislation could increase 
overall pay in a given week by as much as 100 percent over 
amounts payable under current law. Since there is no compelling 
evidence of widespread staffing problems, we don't see a basis 
for asking taxpayers to fund the kind of large pay increases 
that H.R. 408 can produce.
    Section three of the bill would make hazardous duty pay 
received by firefighters basic pay for retirement purposes. 
Again this provision does not meet the three principles 
governing our review of the bill, and therefore we oppose that 
section also.
    The proposed provision does not meet the test of being good 
public policy when viewed independently. Retirement annuities 
are intended to replace a proportion of an individual's income 
earned consistently over the course of a career. For that 
reason hazardous duty pay is one of many things explicitly 
excluded from statutory definition of basic pay.
    Second, crediting hazardous duty pay for retirement 
purposes could create substantial inequities between wildland 
firefighters and the broader community that also receives 
hazardous duty pay but is not credited with that pay for 
retirement.
    The provision fails the third test of being a prudent use 
of taxpayer dollars. Incorporating these amounts in the 
calculation of annuities will result in unfunded pension 
liabilities and will require additional taxpayer dollars. For 
all of the reasons stated above, the administration opposes 
H.R. 408. I would be pleased to respond to any questions. Thank 
you.
    [The prepared statement of Ms. Kichak follows:]

    [GRAPHIC] [TIFF OMITTED] T3409.008
    
    [GRAPHIC] [TIFF OMITTED] T3409.009
    
    [GRAPHIC] [TIFF OMITTED] T3409.010
    
    [GRAPHIC] [TIFF OMITTED] T3409.011
    
    [GRAPHIC] [TIFF OMITTED] T3409.012
    
    Mr. Porter. Thank you very much. I would also like to note 
that firefighters are not whiners.
    Ms. Kichak. No.
    Mr. Porter. And note that the firefighters that I've spoken 
to are very proud of what they do. They're very proud to serve 
and they're also happy to be where they are and they consider 
it an honor. So even by this legislation coming forward and 
being heard today, it's not based upon a bunch of folks out 
there that are really unhappy. They're actually very proud of 
what they do. But I would concur that I believe that there 
needs to be some adjustments, which is really why we're 
gathered here today.
    I have of course numerous questions and then we will submit 
additional because of the element of time. But I guess first, 
Bob, how many in Nevada, how many residents of Nevada would be 
under this category? You mentioned 400 and some. Is that Nevada 
residents?
    Mr. Vaught. Most of those are Nevada residents, 400 
employees total. About 130 include the firefighting force for 
the Forest Service. That does not, Mr. Chairman, include BLM 
employees or other Federal agency employees. Only a portion 
though of those 130 employees have a permanent appointment with 
the Forest Service and would be applied to a standard like 
this. And I'm sorry I don't have the exact number with me 
today, but I'd be happy to provide that. I could do so quickly.
    Mr. Porter. What would you say an average for, and I may 
have the terminology wrong, but a transfer to another portal, 
would it be called transfer or what would you call it when they 
go to fight a fire in Washington State or whatever, what is 
that called? Transferred?
    Mr. Vaught. Mike.
    Mr. Dudley. Just a reassignment.
    Mr. Porter. So if you're to take the average time away to 
be reassigned, what would it be for an employee to be away from 
their own portal.
    Mr. Vaught. Mr. Chairman, it really varies a lot. Right 
now, in fact, in Washington and the very northern part of the 
United States fire danger is very high, and we expect that 
there will be additional significant fire behavior up there 
this fall. And when an employee leaves their home to go to a 
fire in a location such as that from Nevada, they are gone--I 
believe they can work--how many days, Mike.
    Mr. Dudley. 14 up to 21.
    Mr. Porter. 14 up to 21.
    Mr. Vaught. Up to 21 days.
    Mr. Porter. So they should anticipate 14 but then they 
could go to 21 is what you're saying.
    Mr. Vaught. Yes.
    Mr. Porter. When they transfer, reassign it's 14 days at a 
time normally.
    Mr. Vaught. Yes, normally. Now, if the fire danger remains 
severe, they would have a short period of rest and they could 
be quickly reassigned to the fire again. So the main purpose of 
the 14 to 21 days is to ensure that they have a limited period 
of work and a proper amount of rest before they're reassigned 
to fires. But in some cases in severe years firefighters are 
assigned constantly on that type of schedule, 14 to 21 days and 
then rest period and reassigned throughout the fire season.
    Mr. Porter. So they could be gone for a better part of a 
summer or fire season, 90 days or so, I mean, could they.
    Mr. Vaught. Mr. Chairman, that is entirely possible. And 
for some employees it's even likely. We have a group of 
employees called Hot Shots and their role is to be kind of the 
army rangers of the Forest Service firefighting corps. They're 
the elite troops and they spend their entire summer fighting 
fires somewhere in the Forest Service across the country.
    Mr. Porter. Are they compensated differently? Is it the 
same hazardous pay when they're on? How does it work for those 
guys.
    Mr. Vaught. They're compensated in precisely the same way 
as other Federal employees that fight fires, Mr. Chairman.
    Mr. Porter. So of the 400 and some approximately you 
mentioned, about 130 are full-time firefighters.
    Mr. Vaught. Mr. Chairman, full time during the season.
    Mr. Porter. Yes.
    Mr. Vaught. Yes. Some have permanent appointments and some 
are just seasonal employees and just work part of the year for 
the Forest Service and don't have permanent Federal 
appointments.
    Mr. Porter. I met a young man this morning that's from 
Arizona that's trying to--he's seasonal and trying to go full 
time.
    Mr. Vaught. Right.
    Mr. Porter. There you have a number of those folks.
    Mr. Vaught. Yes, sir.
    Mr. Porter. And this may be a question for Nancy, and if 
need be, please jump in. What are their classification? What is 
their title? Are they technicians? Wildlife technicians? 
Wildland technicians? How do they fall into the category of 
titles.
    Mr. Vaught. That might be better addressed--or should I go 
ahead? In most cases, Mr. Chairman, our firefighting forces are 
and historically have been classified in the forestry 
technician series. And the pay grades range from GS-5 up to GS-
13 or so for the employees that are actively fighting fire on 
the ground. And I think in most cases they are classified as 
forestry technician employees.
    Mr. Porter. That's because they have other duties beyond 
just fighting fires.
    Mr. Vaught. Yes. The Forest Service has always viewed our 
firefighters as a part of our larger natural resource 
management force, and during the off season they perform 
forestry technician duties. During the on season they perform 
fire duties, and then basically almost all of our employees 
fight fire when the need is high. So it's part of our larger 
resource management issue.
    Mr. Porter. So more specifically how much time does a 
wildland firefighter spend on fighting wildfires as compared to 
other Forest Service management duties? Like 50/50 or 70/30 or 
what would it be.
    Mr. Vaught. Mr. Chairman, our firefighting employees have 
different kinds of appointments. Some are full time year round. 
And in those cases those employees spend maybe 30 percent of 
their year fighting fire and the remainder of the year in other 
duties. Other employees have what we call 18 and 8 
appointments. So 18 pay periods fighting fire mostly with 8 pay 
periods off where they're not on active duty, so to speak.
    And then we have another class of employee that are 13 and 
13. So about half of their year they are full-time employees 
fighting fire and then about half of their year they are off. 
And then we have seasonal employees who are only hired, don't 
have a full-time appointment and only are hired during the 
firefighting season.
    Now, what I also have to say though that many of our less 
than permanent full time, year round status employees, the 18 
and 8 employees and the 13 and 13 employees, remain on when 
there is funding and work to do. So when we have fire, 
prescribed fire work or fuels reduction work and lots of chain 
saw work and other on the ground work, wildlife projects, range 
fence building projects, when there is funding and they have an 
interest in staying on, many of them work much longer than 
their 18 and 8 or 13 and 13 appointment in order to take on 
that extra work. I hope that answers your question.
    Mr. Porter. I'm going to have to digest what you just told 
me, but I think I understand. I'll probably come back to that 
in a little bit.
    The forestry technician category, and I'll tell you where 
I'm going, I don't particularly like that title. I think we 
need to elevate that position somehow, something other than 
technician. And maybe not today but I'd like both of you to 
help me as we move forward in legislation. Not that there's 
anything wrong with that title, but I think we have to elevate 
it a little bit more because they're not technicians, you know, 
they're firefighters. They're professionals.
    And as part of legislation we need to work on that title, 
and maybe some of you guys will help me later on with a better 
title. But I want to work on that too, because I think they 
deserve something elevated in that capacity.
    Explain some of the off-season duties. You talked about it 
a little bit, off fire season. So they do proactive under the 
forestry initiative, the President, so can you talk about that 
a little bit more, some of the things they do?
    Mr. Vaught. Certainly, Mr. Chairman. One of the main duties 
they do is what we call fuels or prescribed fire program under 
the Healthy Forest Restoration Act, and the President's 
initiatives that we're currently operating under, it gives us 
funding and priority to do a lot of fuels reduction work.
    This type of work occurs outside normally of the wildfire 
season, and so we have to do planning, NEPA, National 
Environmental Policy Act, planning work. We have to do 
technical planning work, figure out where to do this kind of 
work on the landscape of millions of acres. We have to set 
priorities and then we actually go out and do that.
    Mr. Porter. So if there's a beetle infested forest, they 
would work on under the act.
    Mr. Vaught. That would be a good example.
    Mr. Porter. Remove some of these proactively.
    Mr. Vaught. Yes. They also do many other kinds of work that 
are unrelated to fire. The range program has projects that 
might involve fence construction or supporting the ranchers on 
the national forest. They might have work associated with our 
timber program, marking boundary lines or helping and 
supporting the folks that are surveying and laying out timber 
sales, for example.
    There are many, many, many resource areas--watershed 
projects. There are wildlife and fisheries projects, building 
guzzlers to support higher levels of wildlife populations. Many 
kinds of work that really cover the entire gamut of the natural 
resource work that the Forest Service does.
    Mr. Porter. My friends at the National Park Service, I 
spent 25 years in Boulder City and I was mayor and councilman 
so I have a lot of friends in the National Park Service, and I 
know that a lot of their duties have evolved from National Park 
duties to law enforcement duties because of the number of 
tourists and visitors there. Is your team involved much in law 
enforcement or are they being put in a position of law 
enforcement because of the tourists or visitors or problems in 
the areas.
    Mr. Vaught. Mr. Chairman, by and large they do not. That 
doesn't mean there aren't a few employees that are involved in 
the law enforcement work. But at least on Humboldt-Toiyabe 
National Forest our law enforcement officers are professional 
officers, they're peace officers of the same rank and level as 
county sheriffs and other professional law enforcement 
officers. There are relatively few of them. We just have maybe 
four or five law enforcement officers on the entire Humboldt-
Toiyabe National Forest in the State of Nevada.
    Mr. Porter. Normally that would be in partnership with 
local government, counties, cities.
    Mr. Vaught. Yes.
    Mr. Porter. They're not being called into that role very 
often.
    Mr. Vaught. No.
    Mr. Porter. Other than those that are assigned to that.
    Mr. Vaught. Right.
    Mr. Porter. How about rescues, do they do a lot of rescue 
of individuals.
    Mr. Vaught. Mr. Chairman, they really do not. Now, if we 
have rescue missions, and we do, we search around in our 
organization and we assign people that are available to go on 
those rescues, but it would be a very small, a very small 
percentage of the firefighter's responsibility.
    Mr. Porter. What about prescribed burns, how is that 
handled? Is that handled differently as far as their role with 
prescribed burns.
    Mr. Vaught. Mr. Chairman, actually our firefighters would 
have a very big role in the prescribed burn program. They help 
plan those. They help design that kind of work. And then our 
firefighters of course, our wildland firefighters are the most 
experienced in dealing with fire. And so when we put fire on 
the landscape as a planned activity, they would have a very 
large responsibility in doing that. And that kind of work is 
increasing at a rather dramatic rate as we have funding and 
priority to implement the President's initiative.
    Mr. Porter. I was just in Washington State and I know 
there's serious fires happening. For the team from the Nevada 
portal to go to the Washington portal, how are they 
transported? How do they get there? How does that work.
    Mr. Vaught. Mr. Chairman, it does depend. In some cases 
they would fly on commercial airlines. In some cases there 
would be Forest Service air transportation for some crews. And 
in many cases, I would say probably in most cases they would 
drive.
    Mr. Porter. Drive a Federal vehicle or their own vehicle? 
How do they get there.
    Mr. Vaught. Through Federal vehicles, fire engines or fire 
vehicles that are specifically funded and set aside for use in 
the fire program.
    Mr. Porter. I see.
    Mr. Vaught. So most crews have crew vans, for example, and 
in most cases they would drive.
    Mr. Porter. Now, this is a premier facility we're in today. 
I know the guys from Arizona would smile and appreciate being 
here. But when the firefighters are called to a fire and 
they're living and breathing the smoke and the danger every 
day, their off times are many times spent right at the base of 
the fire, correct, whether it be tents or under a tree. So if 
you could, maybe explain some of the living conditions when 
they are--when they do leave a portal if there's a severe fire.
    Mr. Vaught. On our larger fires, Mr. Chairman, we generally 
set up what we call an incident command post. Sometimes they 
can be very large and include several hundred employees that 
are living and working in this area. They bring in showers, 
portable showers. They bring in portable food, folks that 
prepare and feed and can feed large numbers of firefighters in 
short periods of time. And each of the crews sets up in a 
certain place almost in a military fashion, and they do live 
and stay in that fire camp during their off hours.
    Our firefighters are restricted to 16 hours of firefighting 
work a day, which is a very long day. And that doesn't mean 
they all work 16 hours, but they work up to 16 hours. And so 
our crews would come back to the camp, to the incident command 
post, for their sleep hours and then get fed, showered and the 
next day go out again from that location. They generally are 
fairly segregated from say cities and towns, and so they 
oftentimes are remote.
    Mr. Porter. And we have lost some technicians, firefighters 
when they're off duty from fires and other catastrophes, 
correct, that were actually on duty in a camp nearby? Hasn't 
there been some cases where accidents have happened or the fire 
has shifted, we've lost some individuals?
    Mr. Vaught. Mr. Chairman, unfortunately there have been 
some fatalities of our firefighter crews over the last number 
of years on duty. And occasionally there are firefighters that, 
much relatively rarely, but there are examples of firefighters 
that off duty wander onto a highway or in some cases get into 
trouble and also there are a few fatalities that occur in that 
way.
    Mr. Porter. The reason I ask about living conditions is 
that again we have a great facility here, and this is unique, 
but if we have a major fire, as we have had here in the past, 
they wouldn't all be able to stay here. There would be 
facilities set up, you say military style here, it would be 120 
degrees in a camp, correct? It's not like we're putting folks 
in Bellagios around the country when there's a serious fire.
    Mr. Vaught. Basically, Mr. Chairman, we provide very good 
meals. We provide as good of living conditions as we can to 
keep the firefighters happy and healthy, but they would 
certainly be described as rustic.
    Mr. Porter. And again these employees are not complaining. 
They would like to have their compensation adjusted but they 
don't complain. They're a great group of folks. You should be 
very proud. Thank you, Bob. And I may come back a little bit 
later.
    For the OPM, and I know that we disagree a little bit 
possibly on pieces of this legislation, but I also know of 
OPM's respect for these individuals. Just talk about your 
prospective of these folks a little bit, would you, Nancy, 
because I know you have great respect also for them.
    Ms. Kichak. Well, they definitely do a magnificent job, and 
we do want to afford them all the respect they're due. And, 
therefore, if the title forestry technician doesn't have the 
connotation that affords that respect, we would certainly be 
glad to look at renaming the series.
    However, it is true that because of the particular series 
they're in, series 462, the firefighters do receive higher 
grade--are paid at a higher grade level in recognition of the 
extra duties they do, the things they know about conservation 
and forestry and agriculture. So the title might be misleading 
but the series definitely recognizes their broad range of 
skills, not just their firefighting skills.
    And there is some value to that to be in that series 
because it helps them achieve a higher grade. But we'd 
definitely be glad to look at renaming that, would make it 
clear what high regard we hold them in.
    Mr. Porter. And again we're not here to talk about renaming 
it.
    Ms. Kichak. Right.
    Mr. Porter. Or coming up with a new title, but I think 
that's something we can work on that would help a little bit 
with morale.
    The seasonal employees of course was talked about, 
permanent. You also mentioned a little bit about not having a 
recruitment problem and not having a retention problem. Would 
you talk about that a little bit?
    Ms. Kichak. Sure. We have a data base, the central 
personnel data file. We've analyzed looking at the folks that 
assume this position. And if you look at what we call quit 
rates for folks in similar grades as our firefighters, the quit 
rates are similar. In other words, folks are as likely to leave 
a Federal job of a similar grade that are not firefighters as 
the ones who are firefighters.
    We've looked at the quit rate of seasonal folks, and the 
quit rate there is high but it's not higher than other seasonal 
folks. The Federal Government employs a broad range of folks to 
meet its objectives. We have a lot of seasonal employees in 
other jobs in interior. We have seasonal employees in the 
Internal Revenue Service, etc.
    Mr. Porter. We have too many of those, IRS. Just kidding.
    Ms. Kichak. Anyway, if we look at the quit rate for folks 
in that kind of employment situation, it's very similar to the 
firefighters. So we don't believe we have a recruit and retain 
problem in the firefighters.
    Mr. Porter. Is it possible that there are regional problems 
with recruitment.
    Ms. Kichak. Yes, there can be regional problems. There are 
other pay flexibilities besides the portal-to-portal coverage. 
There are recruitment bonuses and retention bonuses. We also 
have locality pay. We have locality pay adjustments for some 
firefighters in California. So there are other ways if there 
are recruitment and retention programs to address the issue.
    Mr. Porter. I realize this is a hearing specific to the 
bill, but are there some areas that you, OPM, is working on now 
to help with Federal firefighters or in this circumstance? Is 
there anything that we need to know about that maybe is on the 
drawing board.
    Ms. Kichak. We are not specifically working on anything 
pertaining to firefighters. We are studying the issue. We have 
received a lot of feedback from the community, and we remain 
interested in everything they've provided. We've been reviewing 
that. We know there's been some concern about healthcare for 
firefighters, although those who are permanent, either a full 
time or seasonal basis, those folks get it.
    We continue to look at what might be done for coverage for 
folks of a temporary nature and health insurance. However, 
again the Federal Government is a large organization and it 
hires a lot of folks on a temporary basis. So we're looking at 
all these programs as they affect not just firefighters but the 
community at large.
    Mr. Porter. What happens to seasonal if they get hurt on 
the job.
    Ms. Kichak. Well, anyone who gets hurt on the job is 
assisted through the Department of Labor through our workman's 
compensation program. No matter what kind of appointment 
they're in, that is available to them.
    Mr. Porter. I mentioned earlier the prescribed burns. My 
understanding is that they don't receive hazardous duty pay for 
prescribed burns; is that correct.
    Ms. Kichak. I am unable to answer that question.
    Mr. Vaught. Mr. Chairman, that is correct.
    Mr. Porter. Do we know why that is.
    Mr. Dudley. Because it's considered under a prescribed fire 
you're operating under constrained conditions at your----
    Mr. Porter. Portal.
    Mr. Dudley [continuing]. At your work in terms of 
developing the burns. So because of that it's not considered to 
be a wildfire and under those operations hazard pay is not 
considered. If the prescribed fire was to escape and be 
declared a wildfire, then you'd be in a hazard pay situation.
    Mr. Porter. I see. You anticipated my question. Thank you.
    The Federal Government hires a number of cooperators from 
State and local as well as private fire agencies to assist just 
because there's not enough Federal firefighters or is it 
because it's tough to gear up without that?
    Ms. Kichak. Well, the decision on who to hire to fight a 
particular fire is made at the fire.
    Mr. Vaught. Mr. Chairman, if I might, there are many very 
good and important reasons for hiring local resources. You 
don't have transportation. They often know the country. 
Oftentimes volunteer fire departments really appreciate the 
experience that they receive while fighting wildfires when they 
work with us.
    And so it has always been perceived as a very positive 
thing to use local resources when available. And I believe that 
it helps our relationships, it provides some small amount of 
work for a period of time to local folks and local communities, 
and it is a very positive cooperate relationship.
    Mr. Porter. And I will put a plug in for Nevada, whether it 
be North Las Vegas or Boulder City or Henderson, County and 
City, we have a great team here. And I know that its 
cooperation is probably one of the best in the country. And 
that's credit to those folks out there every day and to 
management. But I think we're a real model here in southern 
Nevada of cooperation between agencies.
    And I know that we've had some rough situations in the 
years, but of course when you include 7,000, 8,000, 9,000 
people a month moving into the area and all the of course 
strain on our infrastructure and facilities, I think in Nevada 
we did a great job and we appreciate everyone for that.
    I really have one more question, and that is the portal-to-
portal, if we were to make some adjustments specific to the 
forestry technicians and firefighters, how does that impact 
other firefighters? What happens if we do that?
    Ms. Kichak. Well, the other Federal firefighters are called 
structural firefighters, and their pay system----
    Mr. Porter. Excuse me, is that like Nellis firefighters, 
are they structural firefighters.
    Ms. Kichak. Which kind.
    Mr. Porter. At Nellis Air Force Base.
    Ms. Kichak. Yes. In fact, 90 percent of the structural 
firefighters are in the Department of Defense. And they're in a 
series called 0081, and their grade level is lower and their 
hourly pay is lower. And this is because they are paid for a 
24-hour shift. They don't receive overtime until they've worked 
over 53 hours a week and they don't receive hazardous duty pay. 
So their whole package is entirely different.
    And we do not want to create--you can't look at one piece 
of the package without looking at the other piece. In other 
words, I definitely understand the interest for having portal-
to-portal coverage but then in order to do exactly comparable, 
you would end up with a lower hourly pay and you would give us 
your hazardous duty pay. So changing this for one set of 
firefighters would create an environment in which the other 
Federal firefighters would then be dissatisfied.
    Mr. Porter. Or when we're looking maybe we should look at 
some others also, make sure that they're being compensated 
appropriately also, correct? Put you on the spot, Nancy. But it 
seems to me we should be looking beyond this at some other 
areas also. And really that's it for now. I sure appreciate you 
both being here.
    Ms. Kichak. Thank you very much.
    Mr. Porter. You've come a long way from Pennsylvania.
    Ms. Kichak. It's beautiful.
    Mr. Porter. Bob, where do you live.
    Mr. Vaught. Mr. Chairman, the forest supervisor's office, 
my headquarters office is in Sparks, so we're in the Reno area. 
We have 10 districts throughout the State of Nevada with one 
office being in Bridgeport, CA. And so our forces and employees 
are widely separated in 10 different offices throughout the 
State.
    Mr. Porter. And Sparks has made it on ABC News as one of 
the best places to live in the country, by the way. Just 
thought you might like to know that. Thank you very much.
    Mr. Vaught. Thank you.
    Mr. Porter. Casey and Ryan, please join us.
    Next this, of course, is panel two. Casey Judd, you're up, 
president, Federal Wildland Fire Service Association. Casey, 
welcome.

 STATEMENTS OF CASEY JUDD, BUSINESS MANAGER, FEDERAL WILDLAND 
  FIRE SERVICE ASSOCIATION; AND RYAN BEAMAN, PRESIDENT, CLARK 
 COUNTY FIREFIGHTERS, INTERNATIONAL ASSOCIATION OF FIREFIGHTERS

                    STATEMENT OF CASEY JUDD

    Mr. Judd. Thank you, Mr. Chairman. I do want to correct 
you. I'm actually the business manager for the Federal Wildland 
Fire Service Association.
    Mr. Porter. So you get blamed for everything.
    Mr. Judd. Absolutely. And the buck stops here. The 
president, the one with the really cool tie, is sitting behind 
me.
    Mr. Porter. There we go.
    Mr. Judd. I appreciate the opportunity to be here. It's 
been a long time coming. As stated, my name is Casey Judd, and 
I'm the business manager for the Federal Wildland Fire Service 
Association. The FWFSA is an employee association that was 
created by wildland firefighters in 1991. Our members hold 
positions throughout the GS grade system from the entry level 
GS-2s and 3s to FMOs, or fire manager officers, in the GS-12 
range.
    As a result, the FWFSA itself receives a wealth of 
information on the impact of pay and personnel policies in the 
everyday lives of its members along with the environment of 
their working conditions they face on the fire-line. We believe 
that such information is not readily available to other 
government agencies.
    It is my responsibility to represent the association's 
members in a legislative capacity by developing legislative 
proposals designed to achieve the association's goals and 
objectives and to educate you folks on the Hill with respect to 
those issues.
    I was a Federal firefighter employed by the Department of 
Defense for 20 years and previously held the elected position 
of fifth district vice president for the California 
Professional Firefighters, a position which provided 
legislative and political representation for the State's 
Federal firefighters.
    I also nearly won a position on the executive board of the 
International Association of Firefighters in 2003 by losing by 
21 votes in a special election. I have been working with 
Members of Congress on Federal firefighter issues for over a 
decade. As committee members you're of course----
    Mr. Porter. Excuse me, it's funny how you remember those 
numbers, right, 21. I remember I've lost some races. I can tell 
you the numbers. It's OK.
    MR. JUDD. 21. Trust me, I counted and recounted.
    As committee members of course you're all used to the 
formality of witnesses offering their thanks, but I'd be remiss 
if I didn't personally on the record thank Chris for taking the 
time to work with us, and Chad too. Chris has really taken an 
interest in this issue. I've sent him Web sites of infrared 
imaging, and I really think to a large degree we wouldn't be 
here if we didn't have folks such as Chris that are really 
truly interested in the subject matter and want to make a 
difference in it.
    Although it's unfortunate that more members of the 
committee couldn't be here today as a result of the August 
recess and the scheduling conflicts, it is our fervent hope 
that you will help those folks read our written testimony. We 
had hoped to have additional firefighters here today. Of course 
they're all on fire assignments.
    Mr. Porter. Excuse me, Casey. I've been threatening my 
subcommittee that we would be coming to Las Vegas for a hearing 
soon, and know that if it wasn't for whether it be family or--
--
    Mr. Judd. Absolutely.
    Mr. Porter [continuing]. Congressional commitments that 
they really are very interested in this. Of course we love to 
come to Nevada, but timing is such, but they are very 
interested and want to hear more.
    Mr. Judd. Absolutely. I understand that. We trust that each 
one of you will take the time to thoroughly read the testimony 
provided by our firefighters, if you haven't already. We 
believe that it will paint a very clear picture of the 
longstanding detrimental effects of current pay and personnel 
policies that are on our Federal wildland firefighters and will 
illustrate the ramifications of maintaining the status quo with 
respect to those policies. We trust the testimony will also 
provide guidance on how to affect positive change not only for 
our firefighters but the Nation's taxpayers.
    H.R. 408, the Federal Wildland Firefighter Emergency 
Response Compensation Act, is the second in a series of bills 
introduced by Congressman Pombo on our behalf. His first 
effort, H.R. 2814, was well received by the subcommittee under 
the chairmanship of former Congressman Joe Scarborough.
    During hearings before what was then the Subcommittee on 
Civil Service, and additional testimony before the Subcommittee 
on Forests and Forest Health, the FWFSA laid the groundwork for 
H.R. 408. Although opposed by OPM in favor of a legislative 
proposal offered by the administration, H.R. 2814 which 
eliminated the overtime pay cap for Federal wildland 
firefighters was passed by Congress and signed into law in 
2000.
    The issues identified in H.R. 408 and supporting testimony 
are certainly not new. The concept of portal-to-portal pay 
along with the proper classification of wildland firefighters 
has been discussed for over two decades by the land and 
management agencies themselves.
    Numerous meetings have resulted in recommendations from a 
variety of sources suggesting that the time has come for proper 
classification while also identifying the benefits of portal-
to-portal pay for Federal wildland firefighters.
    Despite these recommendations and the employing agency's 
very own findings on the benefits of portal-to-portal pay, 
proper classification and other personnel pay reforms, 
firefighters continue to face bureaucratic opposition to these 
reforms. Whether it be the political appointees of the land 
management agencies fearing the loss of such appointments or 
the bureaucratic bean counters with absolutely no insight into 
the world of wildland firefighting, our brave men and women 
have been stymied for years in being properly recognized as 
firefighters and properly compensated for their life risking 
duties.
    Yet sadly these very bureaucrats who classify the employees 
as forestry technicians, range technicians and biological 
science technicians refer to them as firefighters when our men 
and women lose their lives in the line of duty. Despite data to 
the contrary, the government continues to suggest there are no 
recruitment and retention problems within the Federal wildland 
firefighting community.
    Such opinions are truly misleading when it becomes evident 
that the data used by the government fails to take into account 
the loss rates for seasonal firefighters who make up nearly 50 
percent of the annual firefighting staffing. Responding to H.R. 
408 the administration of land management agencies have 
suggested that implementing such legislation would be 
prohibitively expensive rather than embracing the reality that 
it might, in fact, mandate the agency to develop more cost 
effective and efficient fire suppression funding policies and 
practices, and, in fact, require them to become more fiscally 
responsible to the American taxpayer.
    Given that the Forest Service has chosen to scrape $100 
million off the top of the suppression budget to move its human 
resources department to New Mexico, it would seem a logical 
conclusion that fiscal policies could be more efficient. The 
administration has also suggested that implementing H.R. 408 
would create a pay disparity between wildland firefighters and 
other Federal employees who are sent on temporary assignments.
    As I indicated in my written testimony, the only government 
employee who faces the same dangers and working conditions that 
our firefighters face are the men and women of the armed 
services, yet they are not taken off the clock and put in a 
non-pay status when resting and eating. I think we would all 
agree that applying such policies to the military would be as 
ludicrous as it is to our firefighters.
    Add to that the typical phenomenon among government 
agencies where a portion of appropriated dollars somehow get 
lost before reaching their intended targets, in this case fire 
managers who need to staff and equip their firefighters for the 
season, and you begin to understand why it is time for Congress 
to takes action on these issues.
    The opposition from the government agencies is nothing new. 
We faced it head-on when dealing with the Department of Defense 
and OPM in the mid to late 1990's when working for pay reform 
for Federal firefighters employed by DOD, and again as I 
mentioned in 1999 and 2000 with H.R. 2814. On each occasion 
Congress understood the need for such reforms and passed our 
legislation.
    While the opposition isn't surprising, it's disappointing 
and difficult to understand given that it is these same 
government entities that have time and again over years and 
years identified these same reform measures as practices and 
policies that need to be adopted.
    We find ourselves in the 21st century responding to a 
variety of incidents and environments yet being managed through 
archaic, out of date policies. Quite simply, current pay and 
personnel policies created a number of dynamics all converging 
in a convoluted and never ending viscous cycle.
    There are approximately 16,000 employees in the 4624 
technician series. Of that about 54 percent are permanent. The 
remaining are seasonal and temporary firefighters who don't 
receive basic healthcare for risking their lives.
    Additionally, for years the Forest Service has relied upon 
other non-primary firefighting Forest Service employees to 
perform collateral duties on wildfires. We have identified 
these employees as the militia in our written testimony. 
Despite the Forest Service still relying on such employees, a 
number of studies report that the number of militia personnel 
actually responding to wildfires continues to decline 
substantially as a result of antiquated policies and for a 
variety of other reasons.
    Further, recruitment and retention, always an issue in many 
Federal occupations as a result of lower pay and benefits than 
their private counterpart, continues to be a major problem on 
individual forests in the west regardless of the more 
optimistic picture painted by the agencies and administration.
    Retention rates in some areas are less than 50 percent. On 
other forests, vacancies simply cannot get filled. Let us also 
not forget that in 1990 the first President Bush signed the 
Federal Employees Pay Comparability Act [FEPCA], into law. It 
was designed to help close the disparity in pay between Federal 
employees and their counterparts in the private sector. 
However, each year since its enactment provisions of the law 
are not properly radically implemented.
    As a result of serious recruitment and retention problems 
in the primary Federal wildland firefighters, and the ever 
increasing reluctance on the part of the members of the militia 
to respond to fires, the land management agencies have become 
more and more reliant on cooperative agreements with State and 
local fire chief agencies as well as private for-profit 
contract companies.
    There is no doubt that cooperative agreements with such 
fire agencies in a number of cases are crucial to prompt 
responses to wildfires each season to a point. The inherent 
higher cost of such resources, often substantially higher than 
comparable personnel and equipment from the Federal land 
management agencies, must be looked at and is in our opinion 
one of the greatest causes for the skyrocketing costs of 
wildfire suppression across the country.
    Not only do these higher costs impact our Nation's 
taxpayers, the negative financial impact it has on the 
government's own wildland firefighters fuels the continuing 
loss of qualified, well trained, at taxpayers' expense I must 
add, Federal wildland firefighters causing the recruitment and 
retention problems we referred to.
    The concept of equal pay for equal work should be in the 
Federal Government to ensure it retains its work force whose 
training and expertise, in the case of wildland firefighters, 
should be considered an investment by the taxpayers and the 
protection of this country's natural resources as well as the 
real and personal property.
    Instead the financial inequities faced by our Federal 
wildland firefighters between themselves and their counterparts 
breeds low moral and creates sufficient incentive for these 
firefighters to leave the Federal service. As a result, as 
recent GAO studies have shown, the current cache of fire 
management personnel are closing in on retirement while those 
that should be preparing for long careers to take on such 
manager assignments are rapidly leaving for better pay and 
benefits outside of the Federal system after receiving 
significant training.
    Given that it may take 17 to 25 years of training and 
experience to become a type I or type II incident commander, it 
becomes quite clear that current archaic policies must be 
amended to rebuild the ranks of Federal wildland firefighting 
staffing. Unfortunately instead of reforming pay and personnel 
policies to assure the survival of the Federal wildland fire 
service and increase the return on our taxpayers' investment by 
giving them the greatest bang for their buck, land management 
agencies seem content on relying on more expensive cooperators 
and contractors to fill the ever increasing gaps in wildfire 
staffing assignments.
    The question is why. The answer is simple. These agencies 
have no incentive to change the way in which they do business. 
They have no true incentive to become more cost effective and 
efficient. There is virtually no oversight and no one to be 
held responsible for irresponsible fiscal policy. Historically 
Congress will ultimately fund the fire suppression costs, 
whether they do it at 100 percent of the preparedness budgets 
or provide a supplemental appropriations at the end of the 
season.
    In recent years some in Congress have chastised the chief 
of the Forest Service for borrowing funds from other projects 
to pay for suppression. Yet in the end Congress provides the 
necessary funds to restore those projects and pay for all 
suppression expenses regardless of the cost.
    We firmly believe that many in Congress are totally unaware 
of the enormous cost expended by the land management agencies 
to pay for contracts and cooperators and salaries and 
associated costs as compared to what they pay their own Federal 
wildland firefighters.
    So as to avoid being redundant with the written testimony, 
the FWFSA has clearly outlined a variety of these costs and 
significantly higher rates in their written testimony. Congress 
has begun to pose questions of the land management agencies 
about the ever increasing cost of fires. Unfortunately the 
answers they get are not necessarily consistent with what our 
firefighters see in the field.
    And inevitably, despite receiving the necessary funding for 
suppression, the land management agency often redirect those 
funds targeted for fire suppression to other projects, such as 
the human resources department move to New Mexico. As a result, 
our firefighters are told they can't hire seasonal 
firefighters, can't properly staff engines, and at the same 
time the agencies are more than willing to pay significantly 
higher costs to contractors and cooperators. It simply doesn't 
make sense.
    Mr. Porter. Excuse me, Casey. Let me remind you that we've 
gone a little beyond five, so maybe you could summarize it a 
little bit for us and we'll allow Ryan to----
    Mr. Judd. OK. And I was going to--with all due respect to 
Mr. Beaman, and those folks that he represents, they have a 
difference, a distinct difference as you well know of the fact 
that they can negotiate pay and benefits. As Federal employees 
we can't.
    We have provided some examples in our written testimony. If 
we're looking at the disparities or inequities, we want to 
remind you that the Federal Government, our firefighters' boss, 
pays these contractors and cooperators at a much higher basic 
rate, portal-to-portal pay plus a 17 percent administrative fee 
plus backfill costs plus a number of other costs associated 
with them. They'll put them in motels. They put us under a tent 
in the dirt.
    And I just want to leave you with one comment if I could 
from a female firefighter in Montana. In referring to OPM's 
draft letter in opposition of H.R. 408 she writes, ``Have them 
take a standards test and a pack test then send them out to a 
crappy piece of land somewhere. Well, and give them the bad 
yellow TSA line gear and the yellow gloves made by the society 
for the blind and inmate crews. Have them chink line in poison 
oak and manzanita for about 2 weeks with bad contractors' food, 
green meat for lunches. It may change their attitude.'' She 
finishes with, ``The people sitting in their offices never 
built a house. It was the man swinging the hammer.''
    Mr. Porter. Thank you.
    Mr. Judd. With that I'm more than happy to answer any 
questions.
    [The prepared statement of Mr. Judd follows:]

    [GRAPHIC] [TIFF OMITTED] T3409.013
    
    [GRAPHIC] [TIFF OMITTED] T3409.014
    
    [GRAPHIC] [TIFF OMITTED] T3409.015
    
    [GRAPHIC] [TIFF OMITTED] T3409.016
    
    [GRAPHIC] [TIFF OMITTED] T3409.017
    
    [GRAPHIC] [TIFF OMITTED] T3409.018
    
    [GRAPHIC] [TIFF OMITTED] T3409.019
    
    [GRAPHIC] [TIFF OMITTED] T3409.020
    
    [GRAPHIC] [TIFF OMITTED] T3409.021
    
    [GRAPHIC] [TIFF OMITTED] T3409.022
    
    [GRAPHIC] [TIFF OMITTED] T3409.023
    
    [GRAPHIC] [TIFF OMITTED] T3409.024
    
    [GRAPHIC] [TIFF OMITTED] T3409.025
    
    [GRAPHIC] [TIFF OMITTED] T3409.026
    
    [GRAPHIC] [TIFF OMITTED] T3409.027
    
    [GRAPHIC] [TIFF OMITTED] T3409.028
    
    [GRAPHIC] [TIFF OMITTED] T3409.029
    
    [GRAPHIC] [TIFF OMITTED] T3409.030
    
    [GRAPHIC] [TIFF OMITTED] T3409.031
    
    [GRAPHIC] [TIFF OMITTED] T3409.032
    
    [GRAPHIC] [TIFF OMITTED] T3409.033
    
    [GRAPHIC] [TIFF OMITTED] T3409.034
    
    [GRAPHIC] [TIFF OMITTED] T3409.035
    
    [GRAPHIC] [TIFF OMITTED] T3409.036
    
    [GRAPHIC] [TIFF OMITTED] T3409.037
    
    [GRAPHIC] [TIFF OMITTED] T3409.038
    
    [GRAPHIC] [TIFF OMITTED] T3409.039
    
    [GRAPHIC] [TIFF OMITTED] T3409.040
    
    [GRAPHIC] [TIFF OMITTED] T3409.041
    
    [GRAPHIC] [TIFF OMITTED] T3409.042
    
    Mr. Porter. She is not very happy.
    Mr. Judd. She is a little spitfire.
    Mr. Porter. Ryan.

                    STATEMENT OF RYAN BEAMAN

    Mr. Beaman. Good morning, Mr. Chairman. I just want to say 
thank you for letting me have the opportunity here today to 
speak in front of you and the committee, and also thank your 
staff for how helpful they've been in this process. I'm Ryan 
Beaman.
    Mr. Porter. Maybe we should give them portal-to-portal pay 
probably.
    Mr. Beaman. I'm Ryan Beaman, southern district vice 
president for the Professional Firefighters of Nevada and a 
member of the International Association of Fire Fighters. I'm 
here today to express support for two bills introduced into the 
109th Congress.
    The first bill is H.R. 697, Federal Firefighters Fairness 
Act, that was introduced by Congresswoman Joanne Davis and 
Congresswoman Lois Capps.
    Firefighters are exposed on a daily basis to stress, smoke, 
heat and various toxic substances. As a result, firefighters 
are far more likely to contract heart disease, lung disease and 
other cancers than any other profession. Firefighters 
increasingly assume the role of the Nation's leading providers 
of emergency medical services and are exposed to many 
infectious diseases. Heart disease, lung disease and cancer and 
infectious disease are now the leading cause of disability and 
death for firefighters. Numerous studies have found that these 
illness are direct occupational hazards for firefighters.
    In recognition of this link, nearly 40 States have enacted 
presumptive disability laws which presume that cardiovascular 
disease, cancer and infectious diseases are job related for the 
purposes of workers' compensation and disability retirement 
unless proven otherwise. No such law covers Federal 
firefighters employed by the Federal Government.
    Our Nation's Federal firefighters have some of the most 
hazardous and sensitive jobs in our country. While protecting 
our national interests on military installations, nuclear 
facilities, VA hospitals and other Federal facilities, they are 
routinely exposed to toxic substances, biohazards, temperature 
extremes and stress.
    Under the Federal Employee Compensation Act, Federal 
firefighters must be able to pinpoint the precise incident or 
exposure that caused a disease for it to be considered job 
related. This burden of proof is extraordinarily difficult for 
firefighters to meet because they respond to a wide variety of 
emergency calls consistently working in different environments 
under different conditions. As a result, very few cases of 
occupational disease contracted by firefighters have been 
deemed to be service connected.
    The presumption is rebuttable, meaning the illness would 
not be considered job related if the employing agency can 
demonstrate that the illness likely has another cause. For 
example, a firefighter who smokes would not be able to receive 
a line-of-duty disability for lung cancer. But the burden of 
proof would be on the employer rather than the injured employee 
or his or her family.
    It is fundamentally unfair that firefighters employed by 
the Federal Government are not eligible for the disability 
retirement for the same occupational disease as their municipal 
counterparts. This disparity is especially glaring in incidents 
where Federal firefighters work alongside municipal 
firefighters during mutual aid responses and are exposed to the 
same hazardous conditions.
    If the Federal Government wants to be able to recruit and 
retain qualified firefighters, they must be able to offer a 
benefits package that is competitive with the municipal sector.
    H.R. 697 amends the Federal Employee Compensation Act to 
create a rebuttable presumption that cardiovascular disease, 
certain cancers and infectious diseases are job related for the 
purposes of workers' compensation and disability retirement.
    Mr. Chairman, we also are here to speak on the other bill 
that everybody else is here, which is H.R. 408 that was 
introduced by Congressman Richard Pombo.
    Mr. Porter. Ryan, can I interrupt you for a moment.
    Mr. Beaman. Yes.
    Mr. Porter. I'm kind of going off of protocol, but the H.R. 
697----
    Mr. Beaman. Yes.
    Mr. Porter. And I guess 697 covers infectious disease also.
    Mr. Beaman. Yes.
    Mr. Porter. So it's similar to what we passed here in 
Nevada, correct.
    Mr. Beaman. Correct. In the State of Nevada we do have 
presumptive benefit for infectious diseases.
    Mr. Porter. So that's one bill, and the 408 is the other 
one.
    Mr. Beaman. The 408 is what everybody else is here to talk 
about.
    Mr. Porter. Because I remember the testimony when I was in 
the legislature and supported it.
    Mr. Beaman. Yes, you did.
    Mr. Porter. And I know from the infectious disease side 
there's certain challenges too, especially in the rescue end. 
But it's not normally protocol to discuss another bill in the 
midst of 408, but I'm glad you brought it up.
    Mr. Beaman. We thought it was an important issue that 
definitely affects Federal firefighters, and we're here today 
to talk about those issues.
    The second bill being H.R. 408 that was introduced by 
Congressman Richard Pombo. This legislation would correct the 
problems of portal-to-portal compensation for wildland 
firefighters.
    As most of you know, Federal firefighters are called out on 
a moment's notice to battle fires and support other emergency 
incidents all over the United States as well as other countries 
on occasion. In these instances firefighters are compensated 
for their travel and the work time only. These firefighters are 
not compensated whatsoever for being away from their home and 
families.
    In other words, it makes no difference in pay for wildland 
firefighters to be away from their home for an extend period of 
time. These firefighters have fought fires throughout the 
western United States, eastern United States, Canada and 
Alaska. They have been pre-positioned for fires in other States 
and only work 8 hour shifts as if they were at home with no 
extra compensation for this duty.
    They may be literally thousands of miles away from home but 
get paid as if they were going home every night to the comforts 
of their home and family.
    Frequently crews have been utilized in a fire suppression 
strategy known as ``Coyote Tactics.'' This implies that we 
construct fire-lines all day then just before dark we receive a 
helicopter sling loaded with military rations, drinking water 
and paper sleeping bags delivered to our fire-line location. 
Once they are provided these items of survival, they go off the 
pay clock while remaining on the fire-line.
    Firefighters have lost a lot of sleep with the ongoing 
concern of fire spread and fire behavior during these 
incidents. Sleeping in the dirt on some ridge top in Montana 75 
miles from the nearest community is not the same as going home 
at night once your shift is over, yet the compensation is the 
same, that is, without pay.
    They do not have the freedom to engage in personal freedoms 
during these periods as we would at home. Instead they are 
usually trying to dry off the sweat often around a campfire 
before their bodies begin to chill while they are at complete 
mercy of the incident. It is a rugged environment on the 
borderline of heat exhaustion and dehydration at times and 
hypothermia at others.
    Sometimes in the 24-hour period they go weeks without a 
shower or even washing their hands on some assignments, yet 
they are compensated the same as if they were returning to 
their homes every night and the luxuries of a hot meal, shower 
and bed. They are not getting any additional compensation yet 
they are making the sacrifices left and right.
    The Federal lands that they protect contain some of the 
most rugged terrain in the United States. Firefighters work 
long hours on steep slopes and a ration of water to make it 
through the shift. They carry all the necessary provisions of 
survival on their backs while they perform these arduous 
duties. Work shifts on these assignments are usually 14 to 16 
hours long and last up to 21 days.
    Sleep is something that the wildland firefighters usually 
do not get enough of during these assignments. As during your 
off time in a fire camp situation, you can spend a lot of time 
of your programmed sleep standing in lines to eat, shower and 
use portable toilets. These situations are uncomfortable, lack 
good sanitation and are sleep depriving, yet they are paid as 
if they're going home every shift which means there is no pay 
during the nonworking hours. In these cases working 16 hour 
shifts during your 8 hours off a firefighter gets 5 to 6 hours 
of sleep.
    Sometimes the incident commander deems the fire camp 
closed. This means that firefighters are confined to the 
perimeter of the fire camp. Firefighters in these cases are 
treated no different than prisoners during non-paid hours. 
Imagine being told you're off the clock but you can't leave the 
premise, yet it would give the appearance of a violation of 
one's civil rights.
    Another example of the need for portal-to-portal pay 
compensation occurs when firefighters are off duty after shift 
and they're not restricted to fire camp. Firefighters may be 
visiting a nearby community unavailable during an off shift 
time when an emergency need occurs and they cannot be found.
    Many, many times over the years they have been awakened 
while in fire camp to engage in fire suppression activities due 
to structures or control lines being threatened. Sometimes 
these critical occurrences last 24 to 48 hours. The bottom line 
is the crew's supervisor cannot retain complete control of the 
resources during off-pay non-pay status.
    With the common exposure of heat exhaustion, dehydration 
and muscle fatigue, to mention a few, incidents need to be 
managed to allow for a maximum recovery to personnel between 
their work shift as well as maintain control of the troops for 
their availability should the need occur.
    In this part of the country, county, city and State 
cooperators are paid portal-to-portal pay when they fight 
Federal wildland fires. It appears unjust that the Federal 
wildland agency would pay their competitors round the clock to 
help put out the fires on Federal lands when not returning to 
their home unit after shift, yet these same agencies do not pay 
their own firefighters at the same incidents.
    This decreases the morale of the troops to know that 
someone working side by side with them is compensated with 
consistent pay while the Federal wildland firefighters are off 
the clock. This issue has escalated in the last several years 
as personnel availability in the Federal work force has 
shrunken drastically. This is due to qualified personnel 
retiring with an insufficient younger work force in their place 
and the fact that many qualified personnel are discouraged to 
do the same job as their competitors yet receive a much lower 
compensation.
    The Federal wildland agencies agree that portal-to-portal 
pay is needed, but I'm not certain that they are persuing this 
for the reasons previously mentioned.
    I'll just kind of summarize and I'll get to my end here. A 
realistic portal-to-portal pay compensation would be like that 
of the cooperators who are employed and provide for 
compensation for wildland firefighters while assigned to the 
emergency incidents for being away from their homes and 
families and enduring the rather primitive environment the 
incident offers, and provide for the necessary control of 
resource personnel on incidents to increase firefighter 
efficiency.
    The Federal wildland firefighting work force has aged 
progressively over the last two decades. Retention of the 
newest employees is a problem. In some areas, such as southern 
California, the numbers are staggering and firefighters are 
opting to leave to go to other cooperating agencies which 
provide better pay, incentives and year round employment.
    Quite simply, the portal-to-portal pay is that wildland 
firefighters are only paid for the hours they are actually 
performing duties even when they are assigned to fire camp 
hundreds of miles away from their home. H.R. 408 entitles a 
wildland firefighter employed by the Department of Agriculture 
or the Department of the Interior to compensation for the 
entire period of time such firefighter is engaged in officially 
ordered or approved duties in responding to a wildland fire or 
other emergency.
    Mr. Chairman, I'd just like to say again thank you for the 
opportunity to give testimony here today. I would also like to 
offer I'm a good friend of Steve McClintock's also, and I send 
his family condolences. As you know, his sister was a volunteer 
firefighter for Cal-Nev-Ari also. And her passing of cancer 
definitely is something I'd like to put on the record.
    [The prepared statement of Mr. Beaman follows:]

    [GRAPHIC] [TIFF OMITTED] T3409.043
    
    [GRAPHIC] [TIFF OMITTED] T3409.044
    
    [GRAPHIC] [TIFF OMITTED] T3409.045
    
    [GRAPHIC] [TIFF OMITTED] T3409.046
    
    [GRAPHIC] [TIFF OMITTED] T3409.047
    
    Mr. Porter. Thank you for mentioning that.
    Ryan, I'll ask you a question first. So is the arrangement 
with the county, cities, are they called cooperators then?
    Mr. Beaman. Yes. And we've been on the line with them 
numerous times. They've called us out for the incident.
    Mr. Porter. Is that negotiated.
    Mr. Beaman. Negotiated with the----
    Mr. Porter. Yeah, the amount, the pay, you know. Maybe this 
is more for Bob.
    Mr. Beaman. It might be.
    Mr. Porter. Is that negotiated per community? How does that 
work for the cooperators.
    Mr. Dudley. It's through--excuse me, Mr. Chairman. It's 
through statewide agreements, that's the first setup, and then 
also local agreements between different municipalities.
    Mr. Porter. Do you do like an annual review of those or how 
does that work.
    Mr. Dudley. Yes, sir. Every State--here in the State of 
Nevada there is an operating plan that is signed yearly by all 
the cooperators.
    Mr. Porter. I see. Thank you.
    For both of you, what would be the No. 1 issue facing 
Federal firefighters in southern Nevada today? If there were 
one thing, what would it be, I mean whether it be equipment or 
pay or food or facilities, what would it be?
    Mr. Judd. I think because it's been so longstanding, that 
the classification issue. When we testified before for Forest, 
Forest and Health, and again with the Civil Service, that 
question was asked of our previous president, and he said 
without a doubt, although it may not provide as much financial 
benefit as portal-to-portal pay, the classification, if you 
will, is probably the most endearing issue to our firefighters.
    They've become firefighters. They've become multitasked. 
Their off-season time is occupied, as far as the information we 
get from the field, doing fire preparedness, running on calls, 
planning. Of course planning is a part of any fire 
organization. Hiring, firing, maintaining equipment. It's 
evolved to the point where the preponderance of their time is 
now geared toward not only the fire season but preparing for 
fire season.
    Mr. Porter. Ryan, what do you think.
    Mr. Beaman. I would definitely say in the classification 
also. You know, in working on the same line as with the Federal 
firefighters we respond, and Nellis Air Force Base is 
definitely one within the county, and we're standing side by 
side with them and definitely, you know, they always ask, you 
know, if we would like to have same type of benefits that you 
do. And that's why I brought forward the presumptive benefits.
    Mr. Porter. Back to the presumptive disability. As you 
explained your testimony, firefighters often have a difficult 
time proving illness obtained or work related even though many 
studies show that these certain illnesses are related. Can you 
explain how establishing this presumptive disability clause 
would help firefighters be protected in their work? Now, I 
understand from the benefit perspective, but how will it help 
also for the record with the work environment?
    Mr. Beaman. Well, they would know that their family is 
going to be protected if they do come down with any type of 
heart or lung or cancerous type of problem that they know going 
into that structure as a Federal firefighters for like Nellis 
would be known that they'd be being protected, not just 
themselves but their family. So it would definitely help them.
    Mr. Porter. Do you think it will change then the working 
conditions or environment in any way?
    Mr. Beaman. I don't believe.
    Mr. Judd. If I could add on that.
    Mr. Porter. Please.
    Mr. Judd. Being a former DOD firefighter this is just 
another example of the fire service evolving. You know, we've 
gone from carts and horses in firefighting to EMS, hazardous 
materials, level A entries and so forth. Now it takes probably 
far more brain than brawn to be a firefighter.
    And with respect to infectious diseases, the incident of 
training and the required training for DOD firefighters, and 
I'm sure for all firefighters, increased significantly over the 
last few years, of course with AIDS and other infectious 
diseases, TB.
    Of course there was a recent news article that the cases of 
TB are skyrocketing with immigration and so forth. And while it 
won't stop us from doing our job, it will allow us to identify 
the precautions we need to take and develop the training 
mechanisms to ensure that we're protected as best we can.
    Mr. Porter. Do you know some individuals who have had 
problems.
    Mr. Judd. Oh, absolutely. McClellan Air Force Base was one 
of the most toxically polluted bases in the air force industry 
where I was stationed. They literally worked with the Nuclear 
Regulatory Commission during the cold war. They uncovered 
plutonium and uranium below our training site after the base 
closed. And fortunately I don't think I heard of any nastiness.
    Military facilities, again because of regulation over the 
years, have not had to comply as private industry does. And so 
the incidents of making contact with these industrial sites, 
which, of course, have all sorts of chemicals, is extremely 
high. I mean, our caseload was probably more HazMat than 
anything else in the last few years that the base was open.
    Mr. Porter. Some day we'll talk about Yucca Mountain. That 
would be for the next hearing.
    You had touched about--Casey, you talked about the 
retention problem. Can you spend a little more time on that?
    Mr. Judd. Sure. And, again, you get the full spectrum. 
We've got a forest in northern California, and a lot of people 
ask, well, is this just a California issue. Well, let's make it 
very clear. Wildfires is a western issue, and that's just the 
way it is, and California is a microcosm for the wildfire 
issue.
    But as an example of the Six Rivers National Forest, 35 to 
40 positions remain vacant. The guy can't--the deputy chief of 
the forest can't hire anybody. He cannot get anybody in to fill 
those vacancies. He's almost resigned to actually hiring a 
recruiter to be able to bring people in there.
    One of the apprentice programs, one of the best in the 
Nation, if not the best in the Nation, is at McClellan Air 
Force Base now. The Forest Service apprentice can come in and 
learn their craft and so forth.
    And while figures may demonstrate that we get a lot of 
recruits in, of course we have a number of settlement 
agreements that require a certain hiring from different 
demographics and so forth, we may get a number of recruits in 
but their retention after 2 years is suspect. I mean, most of 
the forests that report to me show a less than 50 percent 
retention rate for these folks coming into the system.
    And just as with DOD firefighting, you leave the fence, you 
hop the fence to the municipality. I mean, you're getting 
better pay and better benefits out the gate. Why not take 
advantage of significant training at taxpayer expense courtesy 
of the Federal Government, put yourself on a pedestal to these 
municipal firefighters and they'll pluck you out in no time at 
all. And it's not a unique situation in wildland firefighting, 
but it is unique to the Federal system as a whole in a number 
of occupations.
    So I think the OPM representative was accurate in the sense 
that these could be regional, but I think if you look at the 
west in and of itself in the 12 contiguous States, the actual 
figures and you go from forest to forest you'd find that there 
are, in fact, issues of retention and recruitment.
    Mr. Porter. How will passage of 408 decrease our dependence 
on cooperators.
    Mr. Judd. I'm glad you asked that. Again we're not 
suggesting we eliminate contractors and cooperators. They play 
a very vital role that we think they've become--the land 
management agencies have become over-reliant on them. What 408 
would do is hopefully provide a direction from Congress to the 
land management agencies to redefine how they spend their fire 
suppression dollars.
    They could conceivably reduce their reliance on a 
contractor or cooperator, hire another Federal seasonal 
firefighter and still save money on a daily basis, save more 
than enough money to provide that seasonal firefighter with 
health benefits.
    And so that's what we see is that, you know, again, since 
Congress gives them as much money as they want, there is no 
incentive to change policies. They've consistently said, well, 
408 throws money at it. No, we're suggesting that you can do 
this within your budget parameters now, just as we suggested 
with DOD in 1994 through 1998.
    And they have done it within their budget parameters, but 
it will take a mindset change from the leadership of these 
agencies to say, hey, we can be more cost effective and 
efficient. We can improve the staffing and stem the tide of 
recruitment and retention and save money at the same time. And 
hopefully our written testimony has provided some data that 
allows a color picture, if you will, on how that can be 
achieved.
    Mr. Porter. Your written testimony, and you touched upon it 
verbally, was regarding the healthcare coverage for seasonal 
firefighters. What should we be doing different.
    Mr. Judd. I think if the government is going to hire 
seasonal, some are entry level, some have a number of seasons 
behind them, and obviously it's good to tap into their 
experience level. Some seasonal folks want to be permanent, 
some seasonal folks like to be seasonal.
    But I think any time the Federal Government is going to 
hire somebody with the clear understanding that they're going 
to risk their lives on a daily basis to protect the natural 
resources of this country, and the taxpayers' real and personal 
property, No. 1, they ought to maybe bring them in at rates a 
little higher than GS-2; and No. 2, provide them with basic 
health coverage. I can't think of anything more basic than if 
you're going to ask somebody to not sit in an office 
environment and risk their lives. I can't make it any more 
complex than that.
    Mr. Porter. Let's say that this young man that I met 
earlier today that's a seasonal employee, let's say he gets a 
disease or has some problem, of course there's workers' 
compensation, but his injury could actually prevent him from 
becoming a firefighter full time, correct.
    Mr. Judd. Absolutely.
    Mr. Porter. Something happens to him today in the seasonal 
status, he could be hurt so he would not get back into the 
system. What would happen to him.
    Mr. Judd. Go back to washing cars I guess. I really don't 
know. The people that enter the Federal wildland firefighting 
service are a different breed. I've had the luxury of being 
associated with the International Association of Firefighters 
and structural entities and so forth. When you get to the 
wildland folks, when you see them, they're mountain people. You 
know, they just put on an aura of just real genuineness.
    And they truly want to be there and doing it because of 
their love of nature because of the business and so forth. But 
at some point you can't raise a family 3,000 miles away without 
trying to find a way to stay in a paid status. And I touched on 
in the written testimony too that although there are policies 
in place to limit the amount of time on a fire-line, it 
happens, people will find a way to stay on the fire-line while 
they're away from home simply to be on a paid status.
    What does that do? That increases the safety risks. If 
they're in a paid status reports have found, No. 1, you have 
more control over them. Again these reports are 20 years ago. 
You have more control over them, you have less likelihood of 
safety issues and so forth.
    Mr. Porter. How often do you think these individuals are 
away from their home portal a year.
    Mr. Judd. Well, the room would have been filled if they 
weren't away now. As a matter of fact, again, we were hoping to 
have additional written testimony. I talked to a guy that was 
preparing written testimony just a few days ago from the Sierra 
National Forest in California. He's been in Arizona for 5 days 
and hasn't even seen the fire camp.
    Again it's a lot of pre-positioning, a lot of planning and 
so forth and so on, but they can, you know, 14 to 21 days, but 
again you can consume that 21 days, have a day or two of rest 
and you're right back on the fire-line.
    And again these folks aren't whining. I'll be the one to 
whine for them. They love it. But at some point in time you've 
got to look at, as they said, the big picture and look at the 
costs associated with the skyrocketing costs of firefighting. 
And how do we fix it. How do we, No. 1, take care of our 
firefighters; No. 2, provide the service to the taxpayer. And 
out of those I clearly obviously disagree with OPM that 408 
actually meets those.
    Mr. Porter. There has been some testimony presented even 
prior and some calculations run that many critics would say 408 
would increase pay by 90 percent. I assume you don't agree with 
that.
    Mr. Judd. I don't buy it. We poured over example after 
example. We took our folks' pay grades and looked at it and so 
forth. And again I haven't seen the final version of OPM's 
letter. We saw the draft letter referencing something like 390 
percent of this and that and so forth, and we couldn't come up 
with anything more than 75 percent basic pay.
    Again we're not asking to throw that money at the fire 
service, we're asking to maybe take a little bit away from the 
contractors and cooperators and redirect it to our country's 
very own firefighters. We're not asking to add more to the 
transportation bill. No, it's all right. Take that off the 
record. At least I got a laugh out of you folks. That's why it 
was sensible and we have to market this to both sides of the 
aisle and we have to make it cost effective. But it's going to 
rely on the agencies to do their part.
    Mr. Porter. If I understood correctly earlier testimony, 
that ranges by $34,000 a year to what level would it be? I 
guess here's the question: What would the range be? I don't 
know the numbers as well. I know the GS numbers, but is it 
$34,000 to $60,000 or what would it be in pay for base.
    Mr. Vaught. Mr. Chairman, I'm guessing, and maybe I can get 
some help here, but it would be around $25,000 to $60,000 I 
believe.
    Mr. Porter. $25,000 to $60,000.
    Mr. Vaught. Up to grade GS-13.
    Mr. Porter. So what would you see, Casey, this is a 
question for you, with 408 where would that person making 
$25,000 be at the end of the year.
    Mr. Judd. Maybe $32,000. You know, as an example, our 
deputy chief of the Federal service, the cost to the 
government, which includes benefits and so forth, maybe $45 an 
hour. The municipal down the street that goes on a fire call, 
they're $190 an hour.
    You know, we're hearing about the DOD firefighters and 
their grades are reduced because of this or because of that, 
they get paid for meals and sleep time. Well, that needs to be 
fixed too. I mean, we're in the 21st century. Firefighters, the 
vast majority of paid professional firefighters across the 
country are paid whether they go on a call or not. They're paid 
to be available, to respond. We're not asking any more than to 
be paid while we're actually on an emergency incident.
    And I think Ryan would agree. You are paid to be there. And 
OPM's own guidelines that we put in our written testimony seem 
to conflict with that where they say Federal agencies can take 
an employee off the clock for 8 hours for meal and sleep time, 
yet it says that they are so confined and enclosed to the 
government's location that they can't perform their own duties 
as normal then they would be in a paid status. So we're not the 
ones that wrote these things, but they seem to be conflicting 
as well.
    Mr. Porter. Really one more formal question then we're 
going to have to conclude. But, Ryan, what message should I 
take back to my colleagues from Nevada regarding firefighting, 
whether it be local or Federal, what message should I take 
back.
    Mr. Beaman. We just want everybody to be treated the same, 
if it's professional firefighters out here, Clark County, city 
of Las Vegas to our brothers that are the Federal firefighters, 
everybody should be paid the same for doing the same type of 
line of work.
    Mr. Porter. Thank you. Well, I assure you that the cost 
question, I'm going to make that a priority. Also in working 
with the pay and benefits portion and the bill that you 
mentioned earlier, the presumptive, what's that number.
    Mr. Beaman. That was H.R. 697.
    Mr. Porter. As a priority and working with Chairman Pombo 
on his bill. I think there's a lot of merit and I'll do 
everything I can to see that we can improve some of the 
benefits and pay for firefighters.
    I will pass this information on to my colleagues, and I 
know that they're very, very interested and very concerned. And 
know that you're saving a lot of lives and you're also saving a 
lot of people's life savings and personal investments because 
of what you do. We really appreciate it.
    I remember reading a book probably 10, 15 years ago about a 
fire, a wildland fire somewhere in Montana where a bunch of 
folks died. I don't remember the book, but it talks about the 
rigors of fighting the fire. And it was in Montana on the side 
of a mountain, and it was very vivid in its explanation of the 
challenges for the firefighters. So know that I'm doing what I 
can to help. I'd suggest you read the book if I can remember 
the name of it.
    Mr. Judd. I appreciate that. Of course we'd be delighted to 
come back to D.C. any time and chat with anybody who needs to 
be chatted with.
    Mr. Porter. Thank you. And with that we'll adjourn the 
meeting. Of course Members will have additional time to submit 
their testimony that have any questions forwarded to all those 
that testified today. Anything else I need to add for the 
record.
    We'll adjourn the meeting. Thank you all very much.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Danny K. Davis and Hon. 
Richard W. Pombo, and additional information submitted for the 
hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T3409.048

[GRAPHIC] [TIFF OMITTED] T3409.049

[GRAPHIC] [TIFF OMITTED] T3409.050

[GRAPHIC] [TIFF OMITTED] T3409.051

[GRAPHIC] [TIFF OMITTED] T3409.052

[GRAPHIC] [TIFF OMITTED] T3409.053

[GRAPHIC] [TIFF OMITTED] T3409.054

[GRAPHIC] [TIFF OMITTED] T3409.055

[GRAPHIC] [TIFF OMITTED] T3409.056

[GRAPHIC] [TIFF OMITTED] T3409.057

[GRAPHIC] [TIFF OMITTED] T3409.058

[GRAPHIC] [TIFF OMITTED] T3409.059

[GRAPHIC] [TIFF OMITTED] T3409.060

[GRAPHIC] [TIFF OMITTED] T3409.061

[GRAPHIC] [TIFF OMITTED] T3409.062

[GRAPHIC] [TIFF OMITTED] T3409.063

[GRAPHIC] [TIFF OMITTED] T3409.064

[GRAPHIC] [TIFF OMITTED] T3409.065

[GRAPHIC] [TIFF OMITTED] T3409.066

[GRAPHIC] [TIFF OMITTED] T3409.067

[GRAPHIC] [TIFF OMITTED] T3409.068

[GRAPHIC] [TIFF OMITTED] T3409.069

[GRAPHIC] [TIFF OMITTED] T3409.070

[GRAPHIC] [TIFF OMITTED] T3409.071

[GRAPHIC] [TIFF OMITTED] T3409.072

[GRAPHIC] [TIFF OMITTED] T3409.073

[GRAPHIC] [TIFF OMITTED] T3409.074

[GRAPHIC] [TIFF OMITTED] T3409.075

[GRAPHIC] [TIFF OMITTED] T3409.076

[GRAPHIC] [TIFF OMITTED] T3409.077

[GRAPHIC] [TIFF OMITTED] T3409.078

[GRAPHIC] [TIFF OMITTED] T3409.079

[GRAPHIC] [TIFF OMITTED] T3409.080

[GRAPHIC] [TIFF OMITTED] T3409.081

[GRAPHIC] [TIFF OMITTED] T3409.082

                                 <all>

</pre></body></html>
